Report No. D-2007-109      July 9, 2007




        Special Operations Command
          Governmental Purchases
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FMR                   Financial Management Regulation
GSA                   General Services Administration
MIPR                  Military Interdepartmental Purchase Request
MOCAS                 Mechanization of Contract Administration Services
OIG                   Office of Inspector General
RDT&E                 Research, Development, Test, and Evaluation
SOCOM                 Special Operations Command
U.S.C.                United States Code
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                               July 9,2007


MEMORANDUM FOR COMMANDER, SPECIAL OPERATIONS COMMAND
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Special Operations Command Governmental Purchases (Report
         No. D-2007-109)


      Weare providing this report for review and comment. We considered
management comments on the draft report when preparing the final report.

       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Special Operations Command, Chief of Staff comments on Recommendations B.1.a
and B.1.b were nomesponsive. As a result of management comments and additional
information provided by the Defense Finance and Accounting Service, we revised
Recommendation B.2.b and deleted Recommendation B.2.c. Therefore, we request that
the Commander, Headquarters, Special Operations Command provide additional
comments on Recommendations B.1.a and B.1.b and that Director, Defense Finance and
Accounting Service provide additional comments on Recommendation B.2.b by
September 7, 2007.

        Ifpossible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara Sauls at (703) 325-5782 (DSN 221-5782) or to Mr. Brian R. McNamara at
(703) 325-5921 (DSN 221-5921). The team members are listed inside the back cover.
See Appendix E for the report distribution.

                                By direction of the Deputy Inspector General for Auditing:




                                         (f=
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
               Department of Defense Office of Inspector General
Report No. D-2007-109                                                        July 9, 2007
 (Project No. D2006-D000FH-0166.000)

          Special Operations Command Governmental Purchases

                                 Executive Summary

Who Should Read This Report and Why? Congress; the Under Secretary of Defense
(Comptroller)/Chief Financial Officer; Commander, Headquarters, Special Operations
Command (SOCOM); the Deputy Commandant, Programs and Resources; and the
Director of Defense Finance and Accounting Service should read this report. The users
of this audit report will benefit from the review of controls over Headquarters, SOCOM
purchases from and sales to other governmental agencies and gain information that can
improve public accountability and decision making.

Background. In accordance with Public Law 108-375, the Ronald Reagan National
Defense Authorization Act of FY 2005, Section 802, “Internal Controls for Department
of Defense Procurements Through [General Services Administration] GSA Client
Support Centers,” the DoD Office of Inspector General and the General Services
Administration conducted an interagency audit of DoD purchases made by General
Services Administration. In that audit, the DoD Office of Inspector General determined
that guidance was unclear and that fund mismanagement and a lack of acquisition
planning for the funds transferred to General Services Administration caused between
$1 billion and $2 billion of DoD funds to either expire or otherwise be unavailable to
support DoD operations. That finding prompted DoD Office of Inspector General
management to conduct this series of audits on DoD use of interagency and interservice
support.

This is the fourth in the series of reports discussing DoD use of interagency and
interservice support. It discusses the internal controls over Headquarters, SOCOM
military interdepartmental purchase requests (MIPRs). The first report in this series,
DoD Office of Inspector General Report No. D-2006-102, “Marine Corps Governmental
Purchases,” July 31, 2006, discusses the lack of adequate internal controls over outgoing
and incoming MIPRs at the Marine Corps. The second report in this series, DoD Office
of Inspector General Report No. D-2007-062, “Department of the Navy Purchases for
and from Governmental Sources,” February 28, 2007, discusses the lack of adequate
internal controls over outgoing and incoming MIPRs at the Department of Navy. The
third report in this series, DoD Office of Inspector General Report No. D-2007-075,
“Department of the Army Purchases from Governmental Sources,” March 22, 2007
discusses the lack of adequate internal controls over outgoing and incoming MIPRs at the
Department of the Army.

Results. Headquarters, SOCOM had adequate internal controls for preparation of the
MIPR form for outgoing MIPRs and acceptance and administration of incoming MIPRs.
However, Headquarters, SOCOM did not have adequate internal controls for initiation
and approval for its outgoing MIPRs. As a result, Headquarters, SOCOM personnel
could not ensure that all purchases were in the best interest of the Government; served a
bona fide need; and complied with Federal, DoD, and SOCOM regulations. The
Commander, Headquarters, SOCOM should ensure that SOCOM staff follows
established procedures directing that Determinations and Findings be prepared for all
Economy Act orders and that Economy Act orders be properly approved. In addition, the
Commander should initiate a preliminary review and possible corrective actions for
MIPRs that violated or potentially violated the Bona Fide Needs Rule (finding A).

Headquarters, SOCOM and Defense Finance and Accounting Service did not have
adequate internal controls over obligations for Headquarters, SOCOM’s governmental
purchases because Headquarters, SOCOM and Defense Finance and Accounting Service
did not establish and implement procedures to ensure compliance with Federal and DoD
regulations. As a result, Headquarters, SOCOM and Defense Finance and Accounting
Service may have increased the risks of potential Antideficiency Act violations and
understated obligations. Headquarters, SOCOM also did not ensure that reimbursable
MIPR disbursements could be substantiated. As a result, disbursements may have been
made for supplies or services that Headquarters, SOCOM had not received.
Additionally, DFAS did not effectively coordinate audit support. As a result, DFAS
could not support disbursements in a timely manner. The Commander, Headquarters,
SOCOM should develop procedures that ensure obligations are recorded in a timely
manner and that ensure reimbursable orders are supported with evidence of performance.
The Director, Defense Finance and Accounting Service should develop procedures to
ensure it records obligations in a timely manner and to ensure that audit support is
effectively coordinated to provide timely access to requested documentation (finding B).

Management Comments and Audit Response. The Chief of Staff, responding for the
Commander, Headquarters, SOCOM, concurred with all the recommendations.
However, his comments were nonresponsive for two of the recommendations. We do not
agree that reinforcing existing procedures that were not working effectively would ensure
obligations are recorded in a timely manner. We also do not believe it is acceptable to
expect the Office of Secretary of Defense to address the requirement for support of
reimbursable order charges when the Office of Secretary of Defense indicated that it does
not intend to address the issue. We request that the Commander, Headquarters, SOCOM
provide comments on the final report by September 7, 2007.

The Deputy Director, Defense Finance and Accounting Service Columbus, responding
for the Director, Defense Finance and Accounting Service, concurred with one of the
recommendations and nonconcurred with the other recommendation. As a result of
management comments and additional information provided to us, the recommendation
that the Deputy Director nonconcurred with has been revised. We request that the
Director, Defense Finance and Accounting Service comment on the final report by
September 7, 2007.

See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                           ii
Table of Contents 


Executive Summary 	                                                          i


Background 	                                                                 1


Objectives 	                                                                 2


Review of Internal Controls 	                                                2


Findings
      A. 	Adequacy of Special Operations Command Internal Controls over 

            Governmental Purchases                                           3

      B. Special Operations Command Controls over MIPR Funding 	            12 


Appendixes
      A.   Scope and Methodology 	                                          18 

      B.   Prior Coverage 	                                                 20 

      C.   Glossary of Technical Terms 	                                    21 

      D.   MIPR Deficiencies 	                                              23 

      E.   Report Distribution 	                                            25 



Management Comments
      Special Operations Command                                            27 

      Defense Finance and Accounting Service                                29 

Background 

    In accordance with Public Law 108-375, the Ronald Reagan National Defense
    Authorization Act of FY 2005, Section 802, “Internal Controls for Department of
    Defense Procurements Through [General Services Administration] GSA Client
    Support Centers,” DoD Office of Inspector General (OIG) and the GSA
    conducted an interagency audit of DoD purchases made by GSA. In DoD OIG
    Report No. D-2005-096, “DoD Purchases Made Through the General Services
    Administration,” July 29, 2005, DoD OIG determined that guidance regarding
    such purchases was unclear and misunderstood. The DoD OIG also determined
    that the mismanagement of funds and lack of acquisition planning for funds
    transferred to GSA caused between $1 billion and $2 billion of DoD funds to
    either expire or otherwise be unavailable to support DoD operations. The DoD
    IG has issued a series of reports to discuss DoD interagency support from GSA,
    Department of Treasury, Department of Interior, and National Aeronautics and
    Space Administration.

    This is the fourth in the series of reports discussing DoD use of interagency and
    interservice support. It discusses the internal controls over Headquarters, Special
    Operations Command (SOCOM) Military Interdepartmental Purchase Requests
    (MIPRs). The first report in the series, DoD OIG Report No. D-2006-102,
    “Marine Corps Governmental Purchases,” July 31, 2006, discusses the lack of
    adequate internal controls over outgoing and incoming MIPRs at the Marine
    Corps. The second report in this series, DoD Office of Inspector General Report
    No. D-2007-062, “Department of the Navy Purchases for and from Governmental
    Sources,” February 28, 2007, discusses the lack of adequate internal controls over
    outgoing and incoming MIPRs at the Department of Navy. The third report in
    this series, DoD Office of Inspector General Report No. D-2007-075,
    “Department of the Army Purchases from Governmental Sources,” March 22,
    2007 discusses the lack of adequate internal controls over outgoing and incoming
    MIPRs at the Department of the Army. The fifth report will discuss the use of
    interagency and interservice support by the Missile Defense Agency.

    Statutory Guidance. Section 1535, United States Code, title 31,
    (31 U.S.C 1535), “Agency Agreements,” January 7, 2003, allows the head of an
    agency to place an order with another agency for goods or services if those goods
    or services are available; it is in the best interest of the U.S. Government; the
    other agency can fill the order; and the order cannot be provided as conveniently
    or economically by contract with a commercial enterprise.

    Military Interdepartmental Purchase Requests. The MIPR, DD Form 448, is
    issued by one DoD Component to another to procure supplies or services. The
    supplying organization provides a DD Form 448-2, “Acceptance of MIPR,”
    agreeing to provide the requested supplies or services. The DoD Component
    issuing the DD Form 448 considers the form an outgoing MIPR and the DoD
    Component accepting the form considers it an incoming MIPR. DoD may also
    issue the MIPR to non-DoD agencies. DoD typically issues MIPRs as an




                                         1

           Economy Act order unless a more specific statutory authority applies. MIPRs
           may be funded on a direct citation or reimbursable basis or both. 1


Objectives
           Our overall audit objective was to evaluate the internal controls over
           Headquarters, SOCOM’s purchases for and from Governmental sources,
           excluding General Services Administration, Department of the Treasury,
           Department of Interior, and National Aeronautics and Space Administration.
           Specifically, we examined Headquarters, SOCOM’s processes for initiating,
           preparing, obligating, disbursing, and accepting MIPRs. We examined whether
           Headquarters, SOCOM’s purchase requirements were clearly defined and whether
           funds were properly used and tracked. We also reviewed the adequacy of the
           managers’ internal control program as it related to our audit objectives. See
           Appendix A for a discussion of the scope and methodology. See Appendix B for
           prior coverage related to the objectives.


Review of Internal Controls
           Using guidance defined by DoD Instruction 5010.40, “Managers’ Internal Control
           (MIC) Program Procedures,” January 4, 2006, we identified internal control
           weaknesses for Headquarters, SOCOM and Defense Finance and Accounting
           Service (DFAS). Headquarters, SOCOM did not have adequate internal controls
           for initiation and approval of its outgoing MIPRs, for ensuring that obligations
           were recorded in a timely manner, and for ensuring that charges for reimbursable
           orders are supported. DFAS did not have adequate internal controls for ensuring
           that obligations were recorded in a timely manner and ensuring audit support is
           effectively coordinated. Implementing Recommendations A.1, A.2, A.3, A.4,
           B.1.a, B.1.b, and B.2.a will improve Headquarters, SOCOM and DFAS internal
           controls over Headquarters, SOCOM’s MIPR purchases. Implementing
           Recommendation B.2.b will improve DFAS audit support coordination. We will
           provide a copy of the report to the senior Headquarters, SOCOM and DFAS
           officials responsible for management controls.




1
    MIPRs are considered direct-cite when the requesting organization’s funds are cited directly on the
    contract. When the supplying organization performs the work using its own appropriation, and is then
    reimbursed by the requesting organization, the MIPR is considered reimbursable.



                                                      2

                  A. 	Adequacy of Special Operations
                      Command Internal Controls over
                      Governmental Purchases
                  Headquarters, SOCOM generally had adequate internal controls for
                  preparation of the MIPR form for outgoing MIPRs and for acceptance and
                  administration of incoming MIPRs. However, Headquarters, SOCOM’s
                  internal controls were not adequate for initiation and approval of outgoing
                  MIPRs. Although Headquarters, SOCOM provided its personnel with
                  updated and adequate guidance and training, Headquarters, SOCOM
                  processes did not always follow MIPR guidance. As a result,
                  Headquarters, SOCOM personnel could not ensure that all of its
                  purchases:

                      •   were in the best interest of the Government,

                      •   met the Bona Fide Needs Rule, and

                      •   complied with Federal, DoD, and SOCOM regulations.


Headquarters, SOCOM MIPRs
          Headquarters, SOCOM provided a universe of outgoing and incoming MIPRs 2
          processed between August 1, 2004, and January 31, 2006. We randomly selected
          and reviewed 60 outgoing MIPRs totaling $152 million and 60 incoming MIPRs
          totaling $134 million.


Outgoing MIPRs
          Headquarters, SOCOM generally had adequate internal controls over preparing
          the MIPR form when issuing MIPRs to the supplying organization. However,
          Headquarters, SOCOM did not ensure that outgoing MIPRs were properly
          initiated and approved.

          MIPR Initiation
          As the requesting organization, Headquarters, SOCOM was responsible for
          determining that Economy Act order purchases were in the best interest of the
          Government and served a bona fide need. However, Headquarters, SOCOM did
          not ensure all Economy Act order purchases were in the best interest of the
          Government and served a bona fide need.

2
    Outgoing MIPRs were MIPRs sent by Headquarters, SOCOM to other Federal agencies. Incoming
    MIPRs were MIPRs sent by other Federal agencies to Headquarters, SOCOM.



                                                  3

           Determinations and Findings. The Federal Acquisition Regulation (FAR),
           Subpart 17.5, and DoD Financial Management Regulation (FMR) volume 11A,
           chapter 3, April 2000, require that the requesting organization prepare a
           Determinations and Findings to support each Economy Act order that uses
           interagency support capabilities. 3 The requesting agency should use the
           Determinations and Findings to ensure that Economy Act orders, which include
           most of the MIPRs we reviewed, are in the best interest of the Government and
           that the Government cannot obtain the supplies and services as conveniently or
           economically by contracting directly with a commercial enterprise.

           SOCOM Regulation 37-4, “Military Interdepartmental Purchase Request (MIPR)
           Process,” August 11, 2003, authorizes use of the SOCOM Form 13, “Pre-planning
           Funding Sheet” to provide the required determination for Economy Act orders
           issued to DoD agencies. DoD Instruction 4000.19, “Interservice and
           Intragovernmental Support,” August 9, 1995, states that DoD organizations may
           enter into agreements with DoD and non-DoD Federal organizations. For
           agreements with DoD organizations, DoD must ensure that the agreement is in the
           best interest of the Government and capabilities exist to provide the support
           without jeopardizing assigned missions.

           Although the SOCOM Form 13 does not include the title “Determinations and
           Findings,” it does require the determination that the Economy Act order issued to
           a DoD agency is in the best interest of the Government. The SOCOM Form 13
           also requires a rationale for the determination. The rationale provided on the
           SOCOM Forms 13 we reviewed indicated that the Government could not obtain
           the supplies and services as conveniently or economically by contracting with a
           commercial enterprise. Additionally, Headquarters, SOCOM has developed a
           draft Regulation 37-4, which includes a revision to the title of the SOCOM
           Form 13, from “Pre-planning Funding Sheet” template to “Determinations and
           Findings.” Therefore, we accepted the SOCOM Form 13 as adequate support of
           the required determinations for orders issued to DoD agencies. 4

           Of the 60 outgoing MIPRs we reviewed, 8 Economy Act orders, valued at
           $15.8 million, were not properly supported. Specifically, 6 MIPRs, valued at
           approximately $800,000, were issued under the Economy Act to DoD agencies
           and were not supported by a SOCOM Form 13. Two outgoing MIPRs, valued at
           $15 million, were issued under the Economy Act to non-DoD agencies and were
           not supported by a SOCOM Form 13 and the additional detailed memorandum
           (“Economy Act Determination”) as required by SOCOM Regulation 37-4.
           Headquarters, SOCOM should ensure that all Economy Act orders are properly
           supported.
3
    The DoD FMR defines interagency agreements to include support provided to non-DoD agencies.
    However, comments received from the Under Secretary of Defense (Comptroller) indicate that the intent
    of the DoD FMR is to require a Determinations and Findings for all Economy Act orders, including
    support provided to DoD agencies. We did not recommend that the DoD FMR be revised to clarify that a
    Determinations and Findings be required for all Economy Act orders, including interservice orders,
    because that was already recommended in DoD OIG Report No. D2006-102, “Marine Corps
    Governmental Purchases,” July 31, 2006.
4
    Although the SOCOM Form 13 did not specifically state that the accepting activity could provide the
    support without jeopardizing assigned missions, we accepted the SOCOM Form 13 as adequate support
    because that determination is made by an accepting organization when a MIPR is accepted.



                                                     4

Bona Fide Need Purchases. The Bona Fide Needs statute, 31 U.S.C. 1502(a),
requires that the balance of an appropriation or fund limited for obligation to a
definite period is available only for two purposes:

   •	 payment of expenses properly incurred during the period of availability or

   •	 completion of contracts properly made within that period of availability.

In addition, the DoD FMR volume 11A, chapter 3, “Economy Act Orders,”
April 2000, which incorporates the Bona Fide Needs Rule, requires that all
Economy Act orders must serve a bona fide need arising, or existing, in the fiscal
year or years for which the appropriation is available for obligation.

The 60 outgoing orders we reviewed cited an annual or multiyear appropriation
and were therefore required to meet the Bona Fide Needs Rule. However, on
September 22, 2004, Headquarters, SOCOM prepared an Economy Act order,
MIPR No. MIPR04181119, valued at approximately $700,000, for support that
was funded by the FY 2004 Operation and Maintenance appropriation. The
FY 2004 Operation and Maintenance appropriation funding the MIPR was only
available for FY 2004 needs. The performing organization accepted the MIPR as
direct-cite on September 24, 2004, and awarded the delivery orders to procure the
support on September 28, 2004, and September 30, 2004 -- just days before the
end of FY 2004. According to the Defense Federal Acquisition Regulation
Supplement (DFARS), Headquarters, SOCOM may enter into a contract, exercise
an option, or place an order under a contract for severable services for a period
that begins in one fiscal year and ends in the next fiscal year only if the period of
the contract awarded, option exercised, or order placed does not exceed 1 year.
Because the delivery orders were issued at the end of the fiscal year and neither
the MIPR nor the delivery orders provided the period of performance, we were
unable to determine whether the MIPR served FY 2004 bona fide needs.

According to the DoD FMR volume 14, chapter 2, “Violations of the
Antideficiency Act,” October 2002, failure to meet the Bona Fide Needs Rule is a
potential violation of the Antideficiency Act. DoD FMR volume 14, chapter 10,
“Violations—Causes, Prevention and Correction,” October 2004, states that all
violations of the Antideficiency Act must be corrected with the proper funding.
Headquarters, SOCOM should initiate a preliminary review and possible
corrective actions for the MIPR that potentially violated the Bona Fide Needs
Rule.

MIPR Preparation
As the requesting organization, Headquarters, SOCOM was responsible for
properly completing the DD Form 448, “MIPR.” Guidance for preparing MIPRs
is promulgated in the:

   •	 DoD FMR volume 11A, chapter 3, “Economy Act Orders,” April 2000;

   •	 DFARS Subpart 208.70, “Coordinated Acquisition,” December 20, 2002;
      and


                                      5

               •	 DFARS Subpart 253.208, “Required Sources of Supplies and Services,”
                  August 31, 2000.

           Generally, Headquarters, SOCOM properly completed the DD Form 448. Proper
           completion of the DD Form 448 is important to accurately communicate the need
           for specific goods and services to the accepting organization and to enable the
           organizations to provide an adequate record of the supplies and services that were
           ordered.

           Description of the Supplies and Services. For the 60 MIPRs, valued at
           $152 million, Headquarters, SOCOM included sufficient detail on the supplies or
           services requested, 5 as required by 31 U.S.C. 1501, “Documentary Evidence
           Requirement for Government Obligations,” October 11, 2005; FAR Subpart 17.5;
           and the DoD FMR volume 11A, chapter 3. Specifically, FAR Subpart 17.5 and
           DoD FMR volume 11A, chapter 3 require that Economy Act orders include a
           firm, clear, and complete description of the requested supplies or services. It is
           important that the description on MIPRs be specific to ensure that:

                   •	 amendments are in line with the scope of the work to be performed,

                   •	 the appropriate funds are being used, and

                   •	 verification can be made that the supplies and services ordered were
                      received and adequate.

           Delivery Requirements. Of the 60 MIPRs, Headquarters, SOCOM ensured that
           52 MIPRs, valued at $143 million, included the time of delivery or performance 6
           as required by FAR Subpart 17.5, DFARS Subpart 253.208, and DoD FMR
           volume 11A, chapter 3. DFARS 253.208 requires that the agency clearly state the
           required period of performance in each MIPR, taking into consideration
           administrative lead times. Where the required period of performance was
           included, Headquarters, SOCOM could determine whether the supplying
           organization was performing the MIPR in accordance with the original
           agreement. However, 8 MIPRs, valued at approximately $9 million, lacked the
           time of delivery or performance. Headquarters, SOCOM should ensure that all
           MIPRs include the delivery requirements.

           DFARS Subpart 253.208 also requires that the DD Form 448 include the name
           and telephone number of a point of contact. For 58 of the MIPRs, valued at
           approximately $151.6 million, Headquarters, SOCOM included the proper
           information for a point of contact. Two MIPRs, valued at approximately
           $800,000, lacked a point of contact. However, we did not consider them material
           when compared to the 60 MIPRs, valued at $152 million, we reviewed.

           Fund Citation. FAR Subpart 17.5, DFARS 253.208, and DoD FMR
           volume 11A, chapter 3 require the DD Form 448 to include a funds citation. For
           59 of the MIPRs, valued at approximately $150 million, Headquarters, SOCOM
5
    Each DD Form 448, “MIPR” provided a description of the requested supplies and services. Additionally,
    a statement of work was usually attached to the DD Form 448 that provided additional details.
6
    The DD Form 448 or an attached statement of work provided the time of delivery or performance.



                                                     6

included the funds citation. One MIPR, valued at $2 million, lacked a funds
citation. However, we did not consider it material when compared to the
60 MIPRs, valued at $152 million, we reviewed.

Additional Line Items. Headquarters, SOCOM prepared amendments for 28 of
the 60 MIPRs. In accordance with DFARS 208.70, the organization should have
submitted a new MIPR for additional line items of supplies or services not
included on the original MIPR. For the 28 MIPRs, valued at $81 million,
Headquarters, SOCOM prepared amendments that only pertained to the line items
of supplies or services provided for in the original MIPR documents.

MIPR Approval
As the requesting organization, Headquarters, SOCOM was responsible for
ensuring that outgoing MIPRs were properly reviewed and approved.
Headquarters, SOCOM uses the Automated Business Services System to prepare
and transmit outgoing MIPRs, including the Determinations and Findings, to
required approvers. Specifically, the requiring organization official is responsible
for selecting the appropriate routing flow in the Automated Business Services
System. FAR Subpart 17.5 and SOCOM Regulation 37-4 require that
organizations review and approve Economy Act orders to ensure that they are in
the best interest of the Government and meet required standards. Of the
60 MIPRs we reviewed, 57 were Economy Act orders. Headquarters, SOCOM
did not ensure proper approval for 22 of these 57 Economy Act orders.

FAR Approval Requirement. FAR Subpart 17.5 and SOCOM Regulation 37-4
require a contracting officer to review and approve the Determinations and
Findings. For 10 of the 57 Economy Act orders, valued at approximately
$20 million, a contracting officer did not review and approve the Determinations
and Findings because those documents were not transmitted to the contracting
office in the Automated Business Services System, as required.

SOCOM Approval Requirements. SOCOM Regulation 37-4 requires the
program executive officer or director and the Staff Judge Advocate Acquisition
Law Office to review and approve the MIPR package, including the
Determinations and Findings, for Economy Act orders of $100,000 or greater and
for Economy Act orders that are to be sent outside of DoD. For 13 of the
57 Economy Act orders, valued at $46 million, the program executive
officer/director did not review and approve the MIPR package. Additionally, for
5 of the 57 Economy Act orders, valued at approximately $9 million, the Staff
Judge Advocate Acquisition Law Office did not review and approve the MIPR
package. They did not approve these MIPRs because the MIPR packages were
not transmitted to the proper offices in the Automated Business Services System.

Headquarters, SOCOM should ensure that Economy Act orders are always
reviewed by the contracting office. Additionally, Headquarters, SOCOM should
ensure that Economy Act orders of $100,000 or more, and those that are to be sent
outside of DoD, are reviewed by the program executive officer or director and
Staff Judge Advocate Acquisition Law Office.



                                     7

Incoming MIPRs
           Headquarters, SOCOM generally had adequate internal controls for acceptance
           and administration of incoming MIPRs.

           MIPR Acceptance
           Headquarters, SOCOM properly performed its responsibilities for accepting
           incoming MIPRs most of the time. Upon receipt of a DD Form 448,
           Headquarters, SOCOM was responsible for preparing and returning a
           DD Form 448-2, “Acceptance of MIPR” to the requesting organization. The
           DD Form 448-2 informs the requesting organization about whether their MIPR
           was accepted or rejected and, if accepted, the specific terms of acceptance. That
           documentation assures that the parties agree on the materials or services to be
           provided and the payment that is required.

           DFARS Subpart 208.70 requires that MIPRs be officially accepted by completion
           of the DD Form 448-2 within 30 days of receipt of the DD Form 448. DFARS
           Subpart 208.70 also requires that MIPRs be accepted before the expiration of the
           funds cited on the DD Form 448. Of the 60 MIPRs we reviewed,
           Headquarters, SOCOM prepared the basic and amended DD Forms 448-2 for
           54 MIPRs, valued at $101 million, in a timely manner upon receipt of the
           DD Form 448. However, 1 MIPR valued at approximately $18 million was not
           accepted within 30 days of receipt of the DD Form 448. That MIPR was received
           on January 11, 2005, and accepted on May 12, 2005. Because only one MIPR did
           not meet the requirement, we did not consider the controls to be inadequate.
           Also, for 56 MIPRs, valued at approximately $126 million,
           Headquarters, SOCOM properly prepared the basic and amended
           DD Forms 448-2 within the availability of the requesting organization’s funds.
           We also did not consider it significant that 2 MIPRs, valued at approximately
           $9 million, had amendments that were not accepted before the expiration of the
           funds cited on the DD Form 448. We did not consider the first significant
           because the amendment adjusted only the delivery date. We did not consider the
           second significant because the amendment withdrew funds of only approximately
           $7,000.

           DFARS Subpart 253.208 requires the DD Form 448-2 to include the specific
           terms of MIPR acceptance. For 57 MIPRs, valued at $120 million,
           Headquarters, SOCOM properly indicated the terms of MIPR acceptance. 7 We
           did not consider it significant that 1 MIPR valued at approximately $200,000 did
           not include all terms of acceptance, because it was not material when compared to
           the 60 MIPRs, valued at $134 million, that we reviewed.


7
    Headquarters, SOCOM did not provide the appropriation and subhead data cited on the DD Forms 448 or
    the anticipated date of obligation for direct cite items as required by DFARS Subpart 253.2, “Prescription
    of Forms.” Because these elements were not detrimental to the incoming MIPRs we reviewed, the
    DD Forms 448-2 were deemed to be properly completed because they indicated the specific terms under
    which the MIPRs were accepted.



                                                       8

    MIPR Administration
    Headquarters, SOCOM properly performed the responsibilities applicable to its
    incoming MIPRs. Ongoing administration of incoming MIPRs is performed by
    an accepting organization to monitor MIPR work and related funding. When
    incoming MIPRs are accepted as reimbursable, the accepting organization has
    extensive responsibilities because it must spend, monitor, and request
    reimbursement of its own funds. However, when funds are accepted as direct
    citation, the requesting organization’s funds are cited directly on the contract, and
    the accepting organization does not use or monitor any of its own funds. Because
    Headquarters, SOCOM typically accepts incoming MIPRs by the direct citation
    of funds, Headquarters, SOCOM did not have to perform responsibilities related
    to reimbursable orders such as administering its own funds.
    Headquarters, SOCOM was generally not required to ensure that:

       •	 limitations imposed on the use of the requesting organization’s funds were
          not changed,

       •	 obligations were recorded before the requesting organization’s
          appropriation expired,

       •	 unused funds were deobligated before the requesting organization’s
          appropriation expired, or

       •	 account balances were within amounts authorized by the MIPR
          documents.

    DFARS Subpart 253.208 requires performing organizations to complete a MIPR
    amendment for an adjustment of funds or an adjustment of delivery schedule.
    DFARS Subpart 208.70 requires a MIPR amendment for any change in content
    that occurs after the basic MIPR acceptance. Of the 60 incoming MIPRs we
    reviewed, 52 MIPRs had the required MIPR amendments or did not have
    adjustments requiring a MIPR amendment. Although 8 MIPRs lacked required
    MIPR amendments that would have been valued at approximately $900,000, we
    did not consider it significant because that amount was not material when
    compared to the 60 MIPRs, valued at $134 million, we reviewed. DFARS
    Subpart 208.70 requires that a performing organization notify the requesting
    organization of any excess funds by submitting a DD Form 448-2 before the
    requesting organization’s appropriation expires. Of the 60 incoming MIPRs we
    reviewed, 58 prepared the required MIPR amendment in a timely manner or did
    not have excess funds. We did not consider it significant that excess funds in the
    amount of approximately $2,000 associated with 2 MIPRs were not withdrawn
    before the requesting organization’s appropriation expired, because it was not
    material when compared to the 60 MIPRs, valued at $134 million, we reviewed.


Headquarters, SOCOM Personnel
    Generally, Headquarters, SOCOM’s internal controls were adequate for
    preparation of the MIPR form for outgoing MIPRs and acceptance and


                                          9

    administration of incoming MIPRs. Headquarters, SOCOM ensured that
    personnel involved in the process had an adequate understanding of the
    requirements. The Staff Judge Advocate Acquisition Law Office at
    Headquarters, SOCOM conducts annual MIPR training, which covers such topics
    as proper completion of MIPR documentation and fulfilling MIPR requirements.
    Additionally, Headquarters, SOCOM issued internal MIPR guidance, such as
    SOCOM Regulation 37-4, “MIPR Process,” August 11, 2003, which provides
    guidance, assigns responsibilities, and establishes procedures for sending MIPRs
    to servicing activities outside Headquarters, SOCOM.


Summary
    Adequate internal controls are a critical element to ensuring that MIPRs are
    managed properly. Once Headquarters, SOCOM improves its controls over
    initiating and approving outgoing MIPRs, it will comply with Federal, DoD, and
    SOCOM regulations; reduce the risk of Antideficiency Act violations; and be
    assured that MIPR purchases are in the best interest of the Government.


Recommendations and Management Comments
    A. We recommend that the Commander, Headquarters, Special Operations
    Command:

          1. Enforce existing procedures to ensure that Determinations and
    Findings are prepared for all Economy Act orders as required by the Federal
    Acquisition Regulation and DoD Financial Management Regulation.

    Management Comments. The Chief of Staff, responding for the Commander,
    concurred with the recommendation. The Chief of Staff stated that Special
    Operations Command Regulation 37-4 was being revised to place added
    responsibilities on all players involved in the MIPR process. The Chief of Staff
    stated the procedures would be incorporated into the existing MIPR process.

           2. Direct the Comptroller Office to initiate preliminary reviews and
    possible corrective actions for the Military Interdepartmental Purchase
    Request that potentially violated the Bona Fide Needs Rule as discussed in
    the DoD Financial Management Regulation. (See Appendix D for the MIPR
    that potentially violated the Bona Fide Needs Rule.)

    Management Comments. The Chief of Staff concurred with the
    recommendation. The Chief of Staff stated that Special Operations Command
    would conduct a preliminary review and draft a report in 90 days.

           3. Enforce existing procedures to ensure that all Military
    Interdepartmental Purchase Requests include the time of delivery or
    performance as required by the Federal Acquisition Regulation, Defense



                                        10 

Federal Acquisition Regulation Supplement, and DoD Financial
Management Regulation.

      4. Enforce existing procedures to ensure that Economy Act orders are
approved as required by the Federal Acquisition Regulation and Special
Operations Command Regulation 37-4.

Management Comments. The Chief of Staff concurred with recommendations
3. and 4. The Chief of Staff stated that Special Operations Command Regulation
37-4 was being revised to place added responsibilities on all players involved in
the MIPR process. The Chief of Staff stated the procedures would be
incorporated into the existing MIPR process.




                                    11 

           B. 	Special Operations Command
               Controls over MIPR Funding
           Headquarters, SOCOM and DFAS did not have adequate internal controls
           over obligations for Headquarters, SOCOM’s MIPR purchases.
           Additionally, Headquarters, SOCOM did not have adequate internal
           controls over disbursements for Headquarters, SOCOM’s reimbursable
           MIPR purchases. The internal controls were inadequate because
           Headquarters, SOCOM and DFAS did not establish and implement
           procedures to ensure compliance with Federal and DoD regulations.
           Specifically, Headquarters, SOCOM and DFAS did not ensure that they
           recorded obligations in a timely manner. Headquarters, SOCOM also did
           not ensure that reimbursable MIPR disbursements could be substantiated.
           Additionally, DFAS did not provide effectively coordinated audit support.
           As a result, obligations may have been understated, disbursements may
           have been made for supplies and services that Headquarters, SOCOM had
           not received, and supporting documentation was not provided in a timely
           manner.


Outgoing Headquarters, SOCOM MIPRs
    As the requesting organization, Headquarters, SOCOM was responsible for
    managing MIPR funds and documentation. However, Headquarters, SOCOM did
    not adequately perform these responsibilities for 52 of the 60 outgoing MIPRs we
    reviewed. The 52 MIPRs had the following issues.

    Timely Obligations. Headquarters, SOCOM and DFAS did not timely obligate
    approximately $65 million for 39 of the 60 outgoing MIPRs we reviewed.
    According to DoD FMR volume 3, chapter 8, “Standards for Recording and
    Reviewing Commitments and Obligations,” November 2000,
    Headquarters, SOCOM and DFAS are responsible for ensuring that obligations
    are recorded in the official accounting records no later than 10 calendar days after
    an organization incurs an obligation. As the office incurring the obligation,
    Headquarters, SOCOM is responsible for providing a copy of the obligating
    document to DFAS within 6 calendar days of the date the obligation is incurred.
    The obligating document is the DD Form 448-2, “Acceptance of MIPR” for
    reimbursable MIPRs and the contract for direct cite MIPRs. As
    Headquarters, SOCOM’s official accounting service, DFAS is responsible for
    recording the obligation in the official accounting records within 3 calendars days
    of receipt of the obligating document.

    However, in one instance Headquarters, SOCOM received a DD Form 448-2,
    “Acceptance of MIPR,” that was signed on January 13, 2005, and DFAS did not
    record the obligation until almost 9 months later, on September 1, 2005.
    Additionally, Headquarters, SOCOM received a DD Form 448-2 signed on
    June 20, 2005, and at the time of our site visit on April 24, 2006, DFAS had not
    recorded the obligation.


                                         12 

           The following table identifies the age for the untimely obligations included in our
           audit sample.

                                          Untimely Obligations
                  11-30 days      31-60 days   61-90 days    > 90 days              Total
                 $24,457,995     $30,792,129 $1,948,565     $7,757,038            $64,955,727


           The DoD FMR volume 14, chapter 10, “Violations – Causes, Prevention and
           Correction,” October 2004, explains that when obligations are not recorded, the
           official accounting records reflect an inflated and incorrect availability of funds.
           Because Headquarters, SOCOM and DFAS had not recorded all the obligations in
           a timely manner in the General Accounting and Finance System and
           Headquarters, SOCOM used these records to certify funds availability, it
           increased its risk of authorizing obligations and incurring expenditures in excess
           of available funds. According to the DoD FMR volume 14, chapter 2, authorizing
           obligations or incurring expenditures in excess of available funds is an
           Antideficiency Act violation. Headquarters, SOCOM and DFAS should develop
           procedures to ensure that obligations are recorded in a timely manner.

           Validity of Disbursements. According to the DoD FMR and FAR, disbursement
           transactions, with the exception of interim payments on cost-reimbursement
           contracts for services, require Government documentation authorizing payment.
           We reviewed 60 MIPRs valued at $152 million. Of the 60 MIPRs, 40 MIPRs
           were reimbursable, and 34 MIPRs were direct-cite. 8 Thirty-five of the
           reimbursable MIPRs and 24 of the direct-cite MIPRs had disbursement
           transactions recorded in the accounting system. As the ordering organization,
           Headquarters, SOCOM is responsible for ensuring that disbursements for
           reimbursable MIPRs are supported with evidence of performance. However,
           Headquarters, SOCOM could not provide adequate documentation to support
           disbursements for reimbursable MIPRs. As Headquarters, SOCOM’s official
           accounting service, DFAS is responsible for supporting disbursements for direct-
           cite MIPRs. However, DFAS did not adequately support the audit process to
           efficiently provide documentation needed to support Headquarters, SOCOM
           disbursements.

                  Reimbursable MIPRs. DoD FMR volume 4, chapter 3, “Receivables,”
           October 2003, sections 030402 and 030403, require that receivables due from
           DoD Components or other Federal entities, such as MIPRs accepted as
           reimbursable orders, must have documentation showing that the goods or services
           charged were actually received. Further, section 030403A requires the DoD
           ordering organization to “review all bills from the performing organization to
           ensure that amounts due are in agreement with the reimbursable orders, and are
           supported with a copy of the order or contract and evidence of performance.”
           However, Headquarters, SOCOM did not ensure that disbursements for 34 of the


8
    Twenty-one MIPRs provided items by reimbursement only, 15 MIPRs provided items by direct-cite only,
    19 MIPRs provided items by both reimbursement and direct-cite, and 5 MIPRs were rejected or
    subsequently canceled.



                                                   13 

           reimbursable MIPRs, totaling $25 million, were supported with evidence of
           performance.

                   According to Headquarters, SOCOM and DFAS personnel, when
           Headquarters, SOCOM’s outgoing MIPRs are accepted as reimbursable orders by
           the performing organization, payments may be requested by the performing
           organization using either the Standard Form 1080, “Voucher for Transfers
           Between Appropriations and/or Funds” or the Standard Form 1081, “Voucher and
           Schedule of Withdrawals and Credits.” Headquarters, SOCOM personnel stated
           that they do not provide evidence of receipt and acceptance of materials or
           services for reimbursable orders. As Headquarters, SOCOM’s official accounting
           service, DFAS processes and records the payment requested by the Standard
           Form 1080 or Standard Form 1081. Headquarters, SOCOM and DFAS personnel
           indicated that after the transactions post to the accounting system, “Resource
           Advisors” at Headquarters, SOCOM identifies any invalid charges by reviewing
           disbursement transactions. However, that review does not include ensuring that
           disbursements are supported with evidence of performance, and such a review
           may be ineffective without the required documentation. Headquarters, SOCOM
           should develop procedures to ensure that charges for reimbursable orders are
           supported with evidence of performance, as required by the DoD Financial
           Management Regulation.

                   Direct-Cite MIPRs. DFAS acknowledged to us that its support of the
           audit process was not effective. DFAS computer transmission failures further
           hampered audit efforts. We submitted our first request for documentation to our
           DFAS audit liaison on May 11, 2006. Five days later he indicated that he had
           forwarded our request for documentation to DFAS Dayton and DFAS Omaha.
           We informed the liaison that we would need documentation from all the involved
           DFAS offices collected at Dayton in time for our visit there on June 19, 2006.
           However, on June 19, when we held our entrance conference, only DFAS Dayton
           had received our request for documentation. Consequently, we established new
           deadlines by which we needed to receive documentation.

                    DFAS apparently uploaded some documentation onto an online portal
           application in response to our request, but did not fully authorize about half of the
           files. 9 We could not access the portion of the documentation that was not fully
           authorized. DFAS was unaware of this problem until after we already had
           performed a review of DFAS documentation. DFAS also uploaded some
           documentation onto the online portal application after the deadline to provide that
           documentation but did not inform us of the addition until after we issued our draft
           report. Further, DFAS had inadvertently not provided documentation for the
           disbursement transactions related to one of the MIPRs and did not discover the
           error until after we issued our draft report. DFAS also did not fully explain the
           direct submission authority process during the audit. DFAS did not inform us that
           Defense Contract Audit Agency had stopped documenting the approval for direct
           submission authority by memorandum and replaced it with system approvals until
           after we issued our draft report.


9
    Online portal applications allow users to share information via computer access.



                                                      14 

                    DFAS did not provide documentation for $32 million on 21 of the
            24 direct-cite MIPRs with disbursement transactions before we issued our draft
            report. (Some of that documentation was included in the late upload.) For this
            reason we included a recommendation in our draft report that DFAS develop
            procedures to ensure that invoice payments are properly supported. In the
            management comments, DFAS asserted that all invoice payments were supported,
            including the unsupported disbursement transactions totaling $32 million. DFAS
            did finally provide us more documentation on those disbursement transactions. 10

                    Our DFAS audit liaison did not properly coordinate the discussion draft of
            our report. Therefore, DFAS was unaware of the computer transmission issues
            and we were unaware of late uploads of documentation. Timely coordination is
            key to successful audit efforts. DFAS should develop procedures to ensure that
            audit support is effectively coordinated to provide immediate access to requested
            documentation as required by DoD Instruction 7050.3.


Summary
            Adequate internal controls are critical to ensuring that MIPRs are properly
            managed. Headquarters, SOCOM and DFAS need to strengthen internal controls
            over the MIPR funding process to safeguard against potential violations of the
            Antideficiency Act and noncompliance with Federal and DoD regulations.
            Headquarters, SOCOM and DFAS must improve internal controls over the MIPR
            funding process by enforcing the existing Federal and DoD regulations.
            Additionally, DFAS must improve its coordination of audit support.


Recommendations, Management Comments, and Audit
  Response
            Revised and Deleted Recommendations. As a result of management comments
            and additional information provided to us, we revised Draft Recommendation
            B.2.b and deleted Draft Recommendation B.2.c.

            B.1. We recommend that the Commander, Headquarters, Special Operations
            Command:

                   a. Develop procedures to ensure that obligations are recorded in a
            timely manner as required by the DoD Financial Management Regulation.

            Management Comments. The Chief of Staff concurred with the
            recommendation. The Chief of Staff stated that Special Operations Command
10
      We did not perform an in-depth review of the additional documentation DFAS provided after we issued
     our draft report. A preliminary review of the additional documentation revealed that documentation
     supported disbursement transactions that were previously unsupported. However, the preliminary review
     also indicated that an in-depth review would require extensive resources. We determined that use of
     resources would not be justified after the fact.



                                                     15 

would reinforce existing procedures in the revision of Special Operations
Command Regulation 37-4.

Audit Response. The Chief of Staff comments were nonresponsive. The Chief
of Staff concurred with the recommendation to develop procedures but explained
that the Special Operations Command would only reinforce existing procedures.
Reinforcing existing procedures is distinct from developing new procedures.
Additionally, the existing procedures were not working effectively; therefore,
reinforcing them would be an unlikely resolution. We request that the
Commander, Headquarters, Special Operations Command reconsider his position
to develop procedures to ensure that obligations are recorded in a timely manner
as required by the DoD Financial Management Regulation.

       b. Develop procedures to ensure that charges for reimbursable orders
are supported with evidence of performance as required by the DoD
Financial Management Regulation.

Management Comments. The Chief of Staff concurred with the
recommendation stating that Special Operations Command would investigate
interim steps but the issue is a larger systemic issue that needs to be addressed at
the Office of the Secretary of Defense level.

Audit Response. The Chief of Staff comments were nonresponsive. Not only
does investigating interim steps fall short of developing procedures, but the Office
of the Secretary of Defense indicated that it does not intend to address the issue.
Therefore, the Chief of Staff comments do not indicate that the deficiency will be
resolved. We request that the Commander, Headquarters, Special Operations
Command reconsider his position to develop procedures to ensure that charges for
reimbursable orders are supported with evidence of performance as required by
the DoD Financial Management Regulation.

B.2. We recommend that the Director, Defense Finance and Accounting
Service:

       a. Develop procedures to ensure that obligations are recorded in a
timely manner as required by the DoD Financial Management Regulation.

Management Comments. The Deputy Director, Defense Finance and
Accounting Service Columbus, responding for the Director, Defense Finance and
Accounting Service, concurred with the recommendation. The Deputy Director
stated that the Defense Finance and Accounting Service was in the process of
establishing improved procedures and controls for timely posting of obligations.
The Deputy Director also indicated that the Defense Finance and Accounting
Service performed a review of the 39 MIPRs with untimely obligations and found
that 18 of the 39 MIPRs were obligated timely. The Deputy Director also stated
that the Defense Finance and Accounting Service had timely obligated another
eight MIPRs within three days of the MIPR received date

Audit Response. The Deputy Director comments were responsive. However,
the Defense Finance and Accounting Service’s review of the 39 MIPRs with
untimely obligations was incomplete. We reviewed all the MIPRs’ obligation


                                     16 

documents including MIPR amendments and related contract modifications.
According to Defense Finance and Accounting Service personnel, their review
excluded MIPR amendments and related contract modifications. Therefore, the
Defense Finance and Accounting Service’s review concluded some MIPRs were
timely obligated even though obligations for their MIPR amendments and related
contract modifications were not.

      b. Develop procedures to ensure that audit support is effectively
coordinated to provide timely access to requested documentation as required
by DoD Instruction 7050.3.




                                  17 

Appendix A. Scope and Methodology
We conducted an audit research project to review the MIPR process within the
Special Operations Command. As a result of the research project, we announced
an audit that reviewed the Headquarters, SOCOM process for initiating,
preparing, obligating, disbursing, and accepting MIPRs. We specifically
performed our review at Headquarters, SOCOM in Tampa, Florida, from
April 18, 2006, through May 2, 2006. We did not review Headquarters, SOCOM
Component commands because they are responsible for following their respective
Service guidance and not Headquarters, SOCOM guidance. At
Headquarters, SOCOM, we interviewed fund administrators, comptroller office
staff, accounting liaison office staff, and contracting and legal personnel to learn
the process used by Headquarters, SOCOM to execute these transactions. We
developed a MIPR review checklist, which we based on criteria established in
public law, FMR, FAR, DFARS, Special Operations Federal Acquisition
Regulations Supplement, DoD Instruction 4000.19, SOCOM Regulation 37-4,
and memorandums. We compared the actual Headquarters, SOCOM process with
the relevant criteria to identify weaknesses in internal controls.

We requested and Headquarters, SOCOM provided a universe of 1,415 outgoing
MIPRs, valued at $765 million, and 227 incoming MIPRs, valued at $164 million,
that were processed between August 1, 2004, and January 31, 2006, for
Headquarters, SOCOM. We randomly selected a sample of 60 outgoing MIPRs
valued at $152 million and 60 incoming MIPRs valued at $134 million. We
requested and reviewed the supporting documentation for each transaction
associated with the MIPRs selected. Specifically, we reviewed the DD Form 448,
“Military Interdepartmental Purchase Request;” DD Form 448-2, “Acceptance of
MIPR;” e-mail correspondence between Headquarters, SOCOM and other
organizations identifying requirements; SOCOM Form 13, “Pre-planning Funding
Sheet;” memorandums for record; statements of work; invoices; Automated
Business Services System sign history screen prints; and the Commander’s
Resource Integration System “Summary Query on Selective Transaction History,”
and “Open Document Listing” accounting reports. We completed the MIPR
review checklist for each MIPR selected in our random sample.

Our team traveled to DFAS Dayton to obtain information on how and when
DFAS obligated and disbursed Headquarters, SOCOM funds in the execution of
the selected MIPRs. We conducted teleconferences with personnel from DFAS
Denver and DFAS Columbus. DFAS provided documentation for processing,
recording, and supporting disbursements, including the Standard Form 1080,
Standard Form 1081, Standard Form 1034, Incoming Intra-Governmental
Payment and Collection System charge documents, MOCAS transaction print-
outs, uncertified invoices, receiving reports, DD Form 250, and “Cost Voucher
(Interim)” documentation.

This audit was performed from March 20, 2006, through January 19, 2007, in
accordance with generally accepted government auditing standards.

Use of Computer-Processed Data. To achieve the audit objective, we relied on
computer-processed data that Headquarters, SOCOM and DFAS personnel
extracted from the General Accounting and Finance System, Commander’s


                                    18 

Resource Integration System, Automated Business Services System, Intra-
Governmental Payment and Collection System, Wide Area Workflow, and
MOCAS. We did not perform a formal reliability assessment of the computer-
processed data. We did not find errors between the computer-processed data and
MIPR source documents that would preclude use of the computer-processed data
to meet the audit objectives or that would change conclusions in this report.

Use of Technical Assistance. The Quantitative Methods Division of the
DoD OIG provided assistance. The Quantitative Methods Division ran a random
sample for the outgoing and incoming MIPRs.

Government Accountability Office High-Risk Area. The Government
Accountability Office has identified several high-risk areas in DoD. This report
provides coverage of the Management of Interagency Contracts high-risk area.




                                    19 

Appendix B. Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG)
issued 14 reports discussing MIPRs. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports.

DoD IG Report No. D-2007-075, “Department of the Army Purchases from
Governmental Sources,” March 22, 2007

DoD IG Report No. D-2007-062, “Department of the Navy Purchases for and
from Governmental Sources,” February 28, 2007

DoD IG Report No. D-2007-057, “Use and Controls over Military
Interdepartmental Purchase Requests at the National Geospatial-Intelligence
Agency,” February 13, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on
DoD Purchases Made Through Non-DoD Agencies,” January 2, 2007

DoD IG Report No. D-2007-032, “FY 2005 DoD Purchases Made Through the
Department of the Treasury,” December 8, 2006

DoD IG Report No. D-2007-023, “FY 2005 DoD Purchases Made Through the
National Aeronautics and Space Administration,” November 13, 2006

DoD IG Report No. D-2007-007, “FY 2005 DoD Purchases Made Through the
General Services Administration,” October 30, 2006

DoD IG Report No.D-2006-102, “Marine Corps Governmental Purchases,”
July 31, 2006

DoD IG Report No. D-2006-029, “Report on Potential Antideficiency Act
Violations Identified During the Audit of the Acquisition of the Pacific Mobile
Emergency Radio System,” November 23, 2005

DoD IG Report No.D-2005-096, “DoD Purchases Made Through the General
Services Administration,” July 29, 2005

DoD IG Report No.D-2003-090, “Use and Control of Military Interdepartmental
Purchase Requests at the Air Force Pentagon Communications Agency,” May 13,
2003

DoD IG Report No. D-2002-110, “Policies and Procedures for Military
Interdepartmental Purchase Requests at Washington Headquarters Services,”
July 19, 2002

DoD IG Report No. D-2002-109, “Army Claims Service Military
Interdepartmental Purchase Requests,” June 19, 2002


                                    20 

Appendix C. Glossary of Technical Terms 

Antideficiency Act Violation. The Antideficiency Act is codified in a number of
sections of title 31 of the United States Code (such as 31 U.S.C. 1341(a), 1342, 1349,
1350,1351, 1511(a), 1512, 1513, 1514, 1515, 1516, 1517, 1518, and 1519). The purpose
of these statutory provisions, known collectively as the Antideficiency Act, is enforcing
the constitutional powers of the purse residing in Congress with respect to the purpose,
time, and amount of expenditures made by the Federal Government. Violations of other
laws may create violations of the Antideficiency Act provisions (for example, the “Bona
Fide Needs Rule,” 31 U.S.C. 1502(a)).

Appropriations. An appropriation is a provision of legal authority by an act of Congress
that permits Federal agencies to incur obligations and to make payments out of the
Treasury for specified purposes. An appropriation usually follows enactment of
authorizing legislation. An appropriation act is the most common means of providing
budget authority. Appropriations do not represent cash actually set aside in the Treasury
for purposes specified in the appropriation act; they represent limitations.

Budget Authority. Budget authority is the authority becoming available during the year
to enter into obligations that result in immediate or future outlays of Government funds.

DD Form 448. The MIPR, DD Form 448, is issued by one DoD Component to another
to procure supplies or services. DoD may also issue the DD Form 448 to non-DoD
agencies.

DD Form 448-2. The supplying organization formally accepts a MIPR by means of a
DD Form 448-2.

Determinations and Findings. In general, all Economy Act orders must be supported
by a Determinations and Findings that the use of interagency support capabilities is in the
best interest of the Government and that the required goods, supplies, or services cannot
be obtained as conveniently or economically by contracting directly with a private
source.

Direct Citation Procurement. Direct citation procurement refers to procurement
accomplished by combining the requirements of one or more DoD Components with
those of a DoD Component making a procurement. The procuring Component may issue
one contract with separate schedules showing the quantities, prices, dollar amounts, and
citation of funds of each requiring Component. The direct citation order is recorded as an
obligation by the DoD Component included in the procurement when the Component is
notified in writing that the procuring Component’s contract or project order has been
executed, or when a copy of the contract or project order is received.

Economy Act. The Economy Act authorizes agencies to enter into mutual agreements to
obtain supplies or services by interagency or intraagency acquisition. The Economy Act
applies when more specific statutory authority does not exist.

Expired Appropriation. An expired appropriation is budget authority whose period of
availability for incurring new obligations has expired but the appropriation is not closed
or canceled. During this period, the appropriation is available for adjustment to, or


                                            21 

payment of, existing obligations. Appropriations remain in an expired status for 5 years.
At the end of the 5-year expiration period, the appropriation is closed or canceled and is
no longer available for the payment of unliquidated (undisbursed) obligations.

Interservice Support. Interservice support is support provided by one DoD organization
to a DoD Component of another military Service, Defense agency, Unified Combatant
Command, Army Reserves, Navy Reserves, Air Force Reserves, Marine Corps Reserves,
Air National Guard, or Field Activity.

Intragovernmental Support. Intragovernmental support is support provided by a DoD
organization to a non-DoD Federal organization and vice versa. It does not include
support provided to or received from foreign governments.

Military Interdepartmental Purchase Request (MIPR). A MIPR is an order issued by
one military Service to another to procure services, supplies, or equipment for the
requiring Service. The MIPR (DD Form 448) may be accepted on a direct citation or
reimbursable basis.

Obligations. Obligations are amounts of orders placed, contracts awarded, services
received, or similar transactions made by Federal agencies during a given period, which
will result in outlays during the same or some future period.

Reimbursable Procurement. Reimbursable procurement refers to an order for supplies,
material, or equipment placed by a requiring DoD Component (a) for procurement by
another DoD Component or Federal agency on a contract funded by the procuring DoD
Component or Federal agency, without separate identification of the items, or separate
citation of the funds of the requiring DoD Component; and (b) with subsequent delivery
to and reimbursement by the requiring DoD Component. The reimbursable order is
recorded as an obligation by the requiring DoD Component when the procuring DoD
Component accepts the reimbursable order in writing.

SOCOM Form 13, “Pre-planning Funding Sheet.” SOCOM Form 13 is used by
SOCOM as the Determinations and Findings for Economy Act orders sent to other DoD
Components.

Support Agreement. A support agreement is an agreement to provide recurring support
to another DoD or non-DoD Federal organization. Support agreements between DoD
organizations are used when the supplying activity can provide the support with their
personnel or add the requiring activity requirements to an existing contract. Support
agreements are recorded on a DD Form 1144, “Support Agreement,” or similar format. It
defines the support to be provided by one supplier to one or more receivers and specifies
the basis for calculating reimbursement charges (if any) for each service, establishes the
billing and reimbursement process, and specifies other terms and conditions of the
agreement.




                                            22 

Appendix D. MIPR Deficiencies 

  Count            MIPR No.            MIPR Value        Initiation                                                                                                                      Approvals                                                Execution




                                                                                                                                                       No Contracting Officer Approval
                                                          No Determinations and Findings




                                                                                                                                                                                                                                                                         Unsupported Disbursements for
                                                                                           Potential Bona Fide Needs Rule




                                                                                                                                                                                                                       Acquisition Law Approval
                                                                                                                            No Delivery Requirements




                                                                                                                                                                                           Officer/Director Approval
                                                                                                                                                                                                                        No Staff Judge Advocate
                                                                                                                                                                                            No Program Executive




                                                                                                                                                                                                                                                  Untimely Obligations


                                                                                                                                                                                                                                                                                Reimbursables
                                                                                                      Violation
     1         F2VUG05105G001                      $0                                                                                                                                            X
     2         F2VUG05174G001           $15,374,742
     3           MIPR05180449           $15,019,000       X                                                                                            X                                         X                                                X                             X
     4         F2VUF05083G001           $14,543,000                                                                                                                                              X                                                X                             X
     5         F2VUF06023G001            $9,420,126
     6           MIPR05180548            $8,694,000                                                                                                                                                                                               X                             X
     7         F2VUC05147G001                $21,000                                                                                                                                                                                              X                             X
     8         F2VUR06004G003            $1,500,000
     9         F2VUQ05056GG02            $3,382,391                                                                                                                                                                                               X                             X
    10           MIPR04180313            $2,453,970                                                                                                                                                                                               X                             X
    11         F2VUEN5132G001            $4,384,000                                                                                                                                                                                                                             X
    12         F2VUQ05187G001            $1,349,400                                                                                                                                                                                               X                             X
    13           MIPR05180487            $1,139,000                                                                                                                                              X                                                X                             X
    14           MIPR05180662            $2,096,312                                                                                                                                                                                               X                             X
    15           MIPR05180715            $4,372,000                                                                                                                                                                                               X                             X
    16           MIPR05180455            $2,649,500                                                                                                                                                                                               X                             X
    17         F2VUQ05355G001            $1,674,665                                                                                                                                                                                               X
    18         F2VUE05353G001            $4,461,000                                                                                                                                                                          X                    X
    19         F2VUF05154G001            $3,750,000                                                                                                    X                                         X
    20         F2VUF05298G001                      $0                                                                       X
    21         F2VUQ05112GG01            $3,641,446                                                                                                                                                                                               X
    22         F2VUG05174G002            $3,000,000                                                                                                                                              X                                                X                             X
    23         F2VUQ05056GG01            $1,192,733                                                                                                                                                                                               X
    24         F2VUC05059GG02            $2,449,923                                                                                                                                                                                               X                             X
    25         F2VUC05203GG01            $3,145,070                                                                                                                                                                          X                                                  X
    26         F2VUC05214G002            $1,404,778                                                                                                                                                                                                                             X
    27         F2VUQ05047GG01            $1,731,000                                                                                                                                                                                               X                             X
    28         F2VUC05278G013            $5,490,500                                                                                                                                                                                               X                             X
    29         F2VUC05213G002            $1,233,190                                                                                                                                                                                               X
    30         F2VUC05332G002            $1,600,985                                                                                                                                                                                               X                             X
“X” indicates that the MIPR was deficient in the stated area.



                                                    23
  Count            MIPR No.            MIPR Value        Initiation                                                                                                                      Approvals                                                Execution




                                                                                                                                                       No Contracting Officer Approval
                                                          No Determinations and Findings




                                                                                                                                                                                                                                                                         Unsupported Disbursements for
                                                                                           Potential Bona Fide Needs Rule




                                                                                                                                                                                                                       Acquisition Law Approval
                                                                                                                            No Delivery Requirements




                                                                                                                                                                                           Officer/Director Approval
                                                                                                                                                                                                                        No Staff Judge Advocate
                                                                                                                                                                                            No Program Executive




                                                                                                                                                                                                                                                  Untimely Obligations


                                                                                                                                                                                                                                                                                Reimbursables
                                                                                                      Violation
    31        F2VUF05214G001                      $0                                                                                                                                             X                                                X
    32        F2VUQ05053GG01              $1,008,069                                                                                                                                                                                                                            X
    33        F2VUF05241G001              $6,947,049                                                                                                                                             X
    34        F2VUQ05098GG01              $3,060,000                                                                                                                                                                                              X
    35        F2VUQ05046GG01              $1,290,331                                                                                                                                                                                              X                             X
    36          MIPR05180454               $763,992                                                                                                                                                                                               X                             X
    37          MIPR05180520              $1,700,830                                                                                                                                                                                              X                             X
    38        F2VUE05349G001              $8,090,000                                                                        X                                                                                                                     X
    39        F2VUC05300G001              $1,994,000                                                                                                                                                                                              X
    40          MIPR05180728              $2,397,000                                                                                                                                                                                              X                             X
    41        F2VUQ05214G001                $471,288                                                                                                                                                                                                                            X
    42        F2VUG05318G001                $187,450                                                                                                                                                                         X                    X                             X
    43          MIPR05180615                      $0      X                                                                 X                          X
    44        F2VULA5279GL01                $130,114                                                                                                                                             X                                                X                             X
    45         F2VUJ06004G001                $90,507                                                                                                   X                                                                                          X
    46        F2VUC05278G001                  $9,932                                                                                                                                                                                              X
    47         F2VUJ05090G002                 $8,184      X                                                                 X                          X                                         X                           X
    48          MIPR05180562                  $1,000      X                                                                                            X                                                                                          X
    49          MIPR05180686                 $31,861      X                                                                 X                          X                                                                                          X                             X
    50        F2VUEN5266G001                $217,000                                                                                                                                             X                                                                              X
    51        F2VUB05287G001                 $58,000      X                                                                 X                          X                                                                                          X                             X
    52        F2VUR05293G002                $100,000                                                                                                                                                                                                                            X
    53        F2VUQ05269G001                 $52,000                                                                                                                                                                                              X
    54        F2VUEN5229GQ01                      $0      X                                                                 X                          X
    55          MIPR04181119               $706,523       X                                       X                         X                          X                                         X                           X
    56        F2VUE25353G001                $842,000                                                                                                                                             X                                                                              X
    57          MIPR05180535               $143,400                                                                                                                                                                                               X
    58        F2VUEN5228G008                 $50,000                                                                                                                                                                                                                            X
    59          MIPR05180767               $553,105                                                                                                                                                                                               X
    60          MIPR05180567               $260,620                                                                                                                                                                                                                             X
                       Total           $152,337,985        8                                        1                        8                         10                                      13                             5                   39                          34
“X” indicates that the MIPR was deficient in the stated area.




                                                    24
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Other Defense Organizations
Commander, Special Operations Command
   Inspector General, Special Operations Command
Director, Defense Finance and Accounting Service


Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          25 

Special Operations Command Comments 



                        UNITED STATES SPECIAL OPERATIONS C O M M A N D
                                        O F F I C E O F THE CHIEF O F STAFF
                                           7701 TAMPA POINT BOULEVARD 

                                    MACDILL AIR FORCE BASE, FLORIDA 33621 -5323 





     M E M O R A N D U M FOR DEPUTY INSPECTOR G E N E R A L FOR AUDITING,
     D E P A R T M E N T OF D E F E N S E , 400 A R M Y NAVY DRIVE, A R L I N G T O N , VIRGINIA
     22202-4704

     SUBJECT: Report on Special Operations Command Governmental Purchases (Project
     No. D2006-D000FH-0166.001)


     1. W e have reviewed the Draft Audit Report on Special Operations Command
     Governmental Purchases and provide the following management comments in
     response to the recommendations:

        a. DoDIG Recommendation A . 1 . That the Commander, U S S O C O M , should
     enforce existing procedures to ensure that Determinations and Findings are
     prepared for all Economy Act Orders as required by the Federal Acquisition
     Regulation and DoD Financial Management Regulation.

        U S S O C O M Response: Concur. T h e United States Special Operations Command
     Regulation 37-4, Military Interdepartmental Purchase Request (MIPR) Process, is
     presently being revised to place added responsibilities on all players involved in the
     MIPR process. W e will incorporate these procedures into the existing process.
     Estimated completion date: 30 Sep 07

        b. DoDIG Recommendation A.2. Direct the Comptroller Office to initiate
     preliminary reviews and possible corrective actions for the Military
     interdepartmental Purchase Request that potentially violated the Bona Fide
     Needs Rule as discussed in the DoD Financial Management Regulation.

        U S S O C C O M Comptroller Response: Concur. W e will conduct a preliminary review
     and analysis of all the documentation associated with the funding of the MIPR
     (MIPR04181119) specified in the report. This preliminary review will be conducted in
     accordance with the D o D F M R Volume 14, Chapter 3 and a report will be drafted in 90
     days. Estimated completion date: 2 Jun 07

         c. DoDIG Recommendation A.3. That the Commander, U S S O C O M , enforce
     existing procedures to ensure that all Military Interdepartmental Purchase
     Requests (MIPR) include the time of delivery or performance as required by the




                                  Proven • Vigilant • Prepared
                                  In t h e past     today       for the future




                                                   27
SOCS
SUBJECT: Report on Special Operations Command Governmental Purchases (Project
No. D2006-D000FH-0166.001)


Federal Acquisition Regulation, Defense Federal Acquisition Regulation
Supplement, and D o D Financial Management Regulation.

   U S S O C O M Response: Concur. Same as Recommendation A1 above.

   d. DoDIG Recommendation A.4. That the Commander, U S S O C O M , Enforce
existing procedures to ensure that Economy Act orders are approved as required
by the Federal Acquisition Regulation and Special Operations C o m m a n d
Regulation 37-4.

   U S S O C O M Response: Concur. Same as Recommendation A1 above.

   e. DoDIG Recommendation B.1.a, That the Commander, U S S O C O M , develop
procedures to ensure that obligations are recorded in a timely manner as
required by the DoD Financial Management Regulation.

   U S S O C O M Response: Concur. W e will reinforce existing procedures for
reimbursable and direct cite MIPRs in the regulation rewrite. Estimated completion
date: 30 Sep 07

   f. DoDIG Recommendation B.1.b. That the Commander, U S S O C O M , develop
procedures to ensure that charges for reimbursable orders are supported with
evidence of performance as required by the DoD Financial m a n a g e m e n t
Regulation.

    U S S O C O M Response: Concur. However, this is a larger systemic issue that needs
to be addressed at the OSD level W e will investigate interim steps in the meantime.
Estimated completion date: 30 Sep 07

2. Please contact Mr. Rodney Pedersen at DSN 299-3439 or C o m m (813) 826-3439, if
you have any questions.




                                        T H O M A S D. W A L D H A U S E R
                                        Brigadier General, U.S. Marine Corps
                                        Chief of Staff




                                           2




                                        28
Defense Finance and Accounting Service
Comments


                                     DEFENSE FINANCE AND ACCOUNTING SERVICE
                                                                P O BOX 182317
                                                           COLUMBUS. OHIO 43218-2317




                                                                                                                              MAR        2 2007
     DFAS-JB/CO



     M E M O R A N D U M FOR P R O G R A M DIRECTOR, D E F E N S E F I N A N C I A L A U D I T I N G
                                             SERVICE, DEPARTMENT OF DEFENSE INSPECTOR
                                             GENERAL


     S U B J E C T ; M a n a g e m e n t C o m m e n t s t o t h e D o D I G Draft A u d i t R e p o r t "Special O p e r a t i o n s
                      C o m m a n d G o v e r n m e n t a l P u r c h a s e s , " Project N o . D 2 0 0 6 - D 0 0 0 F H - 0 1 6 6 . 0 0 0 , dated
                      January 19, 2 0 0 7



                  In a c c o r d a n c e w i t h s u b j e c t audit, m a n a g e m e n t c o m m e n t s are p r o v i d e d for
     R e c o m m e n d a t i o n s B 2.a, B . 2 . b , and B . 2 c R e c o m m e n d a t i o n s B . 2 . a and B.2.C h a v e an e s t i m a t e d
     c o m p l e t i o n date o f June, 18, 2 0 0 7 . R e c o m m e n d a t i o n B . 2 . b i s c o n s i d e r e d c l o s e d . Additional
     supporting d o c u m e n t a t i o n h a s b e e n p r o v i d e d t o the auditors s u b s e q u e n t t o t h e i s s u a n c e o f the
     draft audit report.


                  M y point o f c o n t a c t for additional information is Mr. T e d R o b i n s o n , D F A S - J B I / C O , at
     6 1 4 - 6 9 3 - 8 5 4 6 or D S N 8 6 9 - 8 5 4 6 .




                                                                                    Carlton       E . Francis
                                                                             Deputy Director, D F A S C o l u m b u s

     Attachments:
     A s stated




                                                                Www.dfas.mil 

                                                        Your Financial Partner @ W o r k 





                                                                         29 

                                                                                                                                                         Final Report
                                                                                                                                                          Reference




 Management Comments on DoDIG Draft Audit Report, Special Operations Command 

           Governmental Purchases, Project No. D2O06-D000FH-0166.000 

                          Dated January 19, 2007 





Recommendation B.2.a: D e v e l o p p r o c e d u r e s to e n s u r e that o b l i g a t i o n s are recorded in a
t i m e l y m a n n e r a s required by t h e D o D Financial M a n a g e m e n t R e g u l a t i o n


Management Comments: Concur. T h e D o D I G a c c o m p l i s h e d their r e v i e w at D F A S D a y t o n
and c o n c l u d e d 3 9 S O C O M Military Interdepartmental Purchase R e q u e s t ( M I P R s ) w e r e n o t
o b l i g a t e d t i m e l y . W e f o u n d that 18 o f the 3 9 M I P R s w e r e o b l i g a t e d t i m e l y b a s e d o n t h e 10 d a y
rule in t h e D O D F M R V o l u m e 3 , Chapter 8 . W e w e r e a l s o a b l e to d e t e r m i n e that e i g h t w e r e
o b l i g a t e d w i t h i n 3 d a y s o f the M I P R r e c e i v e d date, and 5 w e r e n o t o b l i g a t e d w i t h i n 3 d a y s o f the
M I P R r e c e i v e d date. For the r e m a i n i n g e i g h t M I P R s , w e w e r e unable to d e t e r m i n e i f t h e y w e r e
o b l i g a t e d t i m e l y b e c a u s e there w e r e m i s s i n g and/or bad d a l e s . B e c a u s e e x i s t i n g c o n t r o l s w e r e
not w o r k i n g e f f e c t i v e l y , w e are currently in the p r o c e s s o f e s t a b l i s h i n g i m p r o v e d p r o c e d u r e s and
controls for t i m e l y p o s t i n g o f o b l i g a t i o n s .


Estimated Completion Date: June 1 8 , 2 0 0 7



Recommendation B.2.b: D e v e l o p p r o c e d u r e s to e n s u r e that i n v o i c e p a y m e n t s , w i t h t h e                                Revised
e x c e p t i o n o f interim v o u c h e r s for p r o v i s i o n a l p a y m e n t f r o m contractors w i t h a p p r o v e d billing
s y s t e m s a s d e t e r m i n e d b y t h e contract auditor, are either supported b y d o c u m e n t a t i o n s h o w i n g
receipt and a c c e p t a n c e o f s u p p l i e s d e l i v e r e d or s e r v i c e s p e r f o r m e d or a p p r o v e d a s interim
v o u c h e r s a s required b y t h e Federal A c q u i s i t i o n R e g u l a t i o n and D o D Financial M a n a g e m e n t
Regulation.


Management Comments: N o n - c o n c u r .                           Procedures are in p l a c e to e n s u r e that i n v o i c e
p a y m e n t s , w i t h t h e e x c e p t i o n of interim v o u c h e r s for p r o v i s i o n a l p a y m e n t from contractors w i t h
approved b i l l i n g s y s t e m s a s d e t e r m i n e d b y the contract auditor, are either supported by
d o c u m e n t a t i o n s h o w i n g receipt and a c c e p t a n c e o f s u p p l i e s d e l i v e r e d o r s e r v i c e s p e r f o r m e d or
a p p r o v e d a s interim v o u c h e r s a s required by the Federal A c q u i s i t i o n R e g u l a t i o n a n d D o D
Financial M a n a g e m e n t R e g u l a t i o n . Desk Procedure ( D P ) 4 0 1 , E n t i t l e m e n t , and D P 5 0 0 , Line
Item S c h e d u l e , a n d S h i p m e n t R e c o r d s ( L I S S R ) indicate that w e d o not m a k e i n v o i c e p a y m e n t s
w i t h o u t the receipt and a c c e p t a n c e . T h e audit report stated that 2 1 o u t o f 2 4 M I P R s h a d
unsupported d i s b u r s e m e n t s . R e s e a r c h performed s u b s e q u e n t to t h e i s s u a n c e o f the draft report
d i s c l o s e d that d i s b u r s e m e n t s w e r e supported for 73 o f 7 6 contracts and t h e d o c u m e n t a t i o n w a s
p r o v i d e d to the auditors. W e validated that p a y m e n t s w e r e supported b y a c c e p t a n c e
d o c u m e n t a t i o n , authorization to p a y d o c u m e n t a t i o n , or d o c u m e n t a t i o n for authorization o f direct
s u b m i s s i o n v o u c h e r s . W e w e r e unable t o l o c a t e t h e r e m a i n i n g three contracts and the auditors
arc v a l i d a t i n g the contract n u m b e r s provided.


Estimated Completion Date: T h i s r e c o m m e n d a t i o n is c o n s i d e r e d c l o s e d .




                                                                            30 

                                                                                                                                             Final Report
                                                                                                                                              Reference




Recommendation B.2.c: D e v e l o p p r o c e d u r e s to ensure that direct s u b m i s s i o n authority (for                             Deleted
i n v o i c e p a y m e n t s o f interim v o u c h e r s for p r o v i s i o n a l p a y m e n t from contractors with a p p r o v e d
billing s y s t e m s ) is supported b y t h e contract auditor authorization a s required by t h e D e f e n s e
Federal A c q u i s i t i o n R e g u l a t i o n S u p p l e m e n t ,


M a n a g e m e n t C o m m e n t s ; Partially c o n c u r . Procedures are in p l a c e to e n s u r e that direct
s u b m i s s i o n authority (for i n v o i c e p a y m e n t s o f interim v o u c h e r s for p r o v i s i o n a l p a y m e n t from
contractors w i t h a p p r o v e d b i l l i n g s y s t e m s ) i s supported b y the contract auditor authorization a s
required b y the D e f e n s e Federal A c q u i s i t i o n R e g u l a t i o n S u p p l e m e n t Subpart 2 4 2 . 8 ,
" D i s a l l o w a n c e o f C o s t s , " N o v e m b e r 9 , 2 0 0 5 . D F A S h a s the f o l l o w i n g procedures w h i c h address
direct s u b m i s s i o n authority: D P 2 0 1 , Contract Input, D P 3 0 1 , Input and Control o f V a r i o u s t y p e s
o f I n v o i c e s , a n d D P 4 0 1 Contractor Entitlement. A l t h o u g h n o t s p e c i f i c a l l y m e n t i o n e d in the
audit report, t h e auditors b r o u g h t to o u r attention a w e a k n e s s in e x i s t i n g procedures w h e r e a
direct s u b m i s s i o n letter requires a contract t o b e m o d i f i e d . W e w i l l update our p r o c e d u r e s . T h e
report stated that D F A S w a s u n a b l e to support direct s u b m i t authority for 2 1 o f the 2 4 direct-site
M I P R s . H o w e v e r , s u b s e q u e n t research indicated that w e had t h e 2 1 letters and p r o v i d e d t h e m to
the auditors.


E s t i m a t e d C o m p l e t i o n D a t e : June 1 8 , 2 0 0 7




                                                                     31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
Alice F. Carey
Yalonda N. Blizzard
Brian R. McNamara
Calvin O. King
Lindsay B. Warner
Lusk Penn
Catherine Bird
Ellen E. Kleiman-Redden
